No. 20-378

In the Supreme Court of the United States
NORTH CYPRESS MEDICAL CENTER OPERATING COMPANY, LTD., ET AL., PETITIONERS
v.
CIGNA HEALTHCARE, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE PETITIONERS
J. DOUGLAS SUTTER
SUTTER & KENDRICK, P.C.
3050 Post Oak Blvd., Ste. 200
Houston, TX 77056

DANIEL L. GEYSER
Counsel of Record
ALEXANDER DUBOSE &
JEFFERSON LLP
Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
(214) 396-0441
dgeyser@adjtlaw.com

TABLE OF CONTENTS

Page
A. The decision below conflicts with decisions
of this Court and multiple circuits .................................. 1
B. The question presented is important and
recurring and warrants review in this case ................... 8

TABLE OF AUTHORITIES
Cases:
Colby v. Union Sec. Ins. Co. & Mgmt. Co. for Merrimack
Anesthesia Assocs. Long Term Disability Plan,
705 F.3d 58 (1st Cir. 2013) ................................................7
Conkright v. Frommert, 559 U.S. 506 (2010) .....................1
Connecticut Gen. Life Ins. Co. v. Humble Surgical
Hosp., LLC, 878 F.3d 478 (5th Cir. 2017) ............ passim
Metropolitan Life Ins. Co. v. Glenn,
554 U.S. 105 (2008) ................................................. passim
Montour v. Hartford Life & Accident Ins.,
588 F.3d 623 (9th Cir. 2009) .............................................2
Statutes:
Employee Retirement Income Security Act of 1974
(ERISA), Pub. L. No. 93-406, 88 Stat. 829
(29 U.S.C. 1001 et seq.) ............................................ passim
29 U.S.C. 1104(a)(1) ............................................................4

(I)

A. The Decision Below Conflicts With Decisions Of
This Court And Multiple Circuits
1. a. As the petition established (Pet. 13-21), the decision below directly conflicts with decisions of this Court
and multiple circuits on a core ERISA question: the
proper legal standard for reviewing an ERISA administrator’s benefits determination. This Court requires lower
courts to conduct a “combination-of-factors” analysis,
“taking account of several different, often case-specific,
factors, reaching a result by weighing all together.” Metropolitan Life Ins. Co. v. Glenn, 554 U.S. 105, 117-118
(2008). When “factors” like bad faith or conflicts of interest are present, “a reviewing judge must take [them] into
account.” Id. at 116. In devising that standard, this Court
explicitly rejected the use of “‘rigid and inflexible requirement[s]’” (Conkright v. Frommert, 559 U.S. 506, 516
(2010)); there are no “formulas that will ‘falsif[y] the actual process of judging’” (Glenn, 554 U.S. at 119).
The Fifth Circuit, however, has now abandoned this
Court’s totality analysis and replaced it with a per se rule:
according to the Fifth Circuit, “‘where an administrator’s
interpretation is supported by prior case law, it cannot be
an abuse of discretion—even if the interpretation is legally incorrect.’” Pet. App. 11a (quoting Connecticut Gen.
Life Ins. Co. v. Humble Surgical Hosp., LLC, 878 F.3d
478 (5th Cir. 2017)). The Fifth Circuit thus declares this
Court’s traditional “abuse-of-discretion inquiry * * * obviated by the existence of prior legal authority”; that prior
support automatically “moots” and renders “immaterial”
any “alleged conflicting interests and lack of good faith.”
Pet. App. 9a, 11a; see also Pet. App. 11a (“pretermit[ting]”
any analysis of “the abuse of discretion factors”). In short,
“‘the fact that [at least] two courts have upheld interpretations similar to that of [the administrator] is dispositive

(1)

2
of the issue.’” Humble, 878 F.3d at 485 (emphasis added);
accord Pet. App. 12a.
The conflict between the Fifth Circuit’s approach and
this Court’s established precedent could not be starker.
This Court specifically instructs courts to consider the
“combination” of factors and “reach[] a result by weighing
all together.” Glenn, 554 U.S. at 117. The Fifth Circuit, by
contrast, explicitly refuses to address the “abuse of discretion factors” (including those factors this Court said
lower courts “must” consider) whenever the administrator’s views have prior legal support—even if that legal
support is wrong, and despite credible claims of bad faith,
impermissible conflicts, and arbitrary and disparate
treatment. Pet. App. 11a-12a & n.7, 14a. That is the very
opposite of a “combination-of-factors method of review.”
Glenn, 554 U.S. at 118.
Unlike the Fifth Circuit, other circuits faithfully apply
this Court’s totality standard: “the court must consider
numerous case-specific factors, including the administrator’s conflict of interest, and reach a decision as to
whether discretion has been abused by weighing and balancing those factors together.” Montour v. Hartford Life
& Accident Ins., 588 F.3d 623, 630 (9th Cir. 2009); see also
Pet. 15 (citing multiple circuits). And, unlike the Fifth Circuit, these courts perform that totality analysis even when
prior case law supports the administrator. Pet. 15-20
(same). This body of authority is irreconcilable with the
Fifth Circuit’s mechanical rule. Contra Pet. App. 11a &
n.7 (explicitly refusing to address the “abuse of discretion
factors,” and declaring “alleged conflicting interests and
lack of good faith * * * immaterial”).
b. Because respondents have no answer for this obvious conflict, they resort to an imaginative rewriting of the
Fifth Circuit’s opinion. They insist the Fifth Circuit did in
fact conduct a “totality,” “‘case-specific’” analysis; it just

3
placed “emphasis” on the existence of prior legal support,
and engaged in a less “fulsome” review of everything else.
Opp. i, 1, 11, 18. They declare that the Fifth Circuit did not
“establish a categorical rule,” and brush aside words like
“‘inflexible,’” “‘wooden,’” and “‘per se’” as mere “certstage catchphrases.” Id. at 2, 9. And they insist the Fifth
Circuit applied this Court’s holdings and fault petitioners
for “mischaracteriz[ing]” the decision below. Id. at 8.
If respondents’ version of the opinion had any grounding in reality, their arguments might make some sense.
But respondents’ take is pure fiction. The Fifth Circuit
could not have spoken any more plainly in articulating its
“dispositive” rule:
At least two other courts have effectively or explicitly
concluded that the provision at issue here was legally
correct. * * * In these circumstances, * * * “the fact
that [at least] two courts have upheld interpretations
similar to that of [Cigna] is dispositive of the issue”—
“arguably the fact that two courts have found [Cigna’s]
interpretation of the policy language reasonable itself
establishes that the interpretation does not constitute
an abuse of discretion.”
Humble, 878 F.3d at 485. In short, per the Fifth Circuit,
“‘where an administrator’s interpretation is supported by
prior case law, it cannot be an abuse of discretion—even
if the interpretation is legally incorrect.’” Pet. App. 11a.
There is simply no other way to understand this plain
language. But just to eliminate any doubt, the Fifth Circuit below confirmed exactly what it meant: Under its approach, the “prior legal authority” itself “obviate[s]” the
need for any “abuse-of-discretion inquiry” (Pet. App. 11a);
any “conflicts” become per se “immaterial,” and there is
no need to “decide the abuse of discretion factors” (id. at
11a & n.7). The prior case law “moots consideration of

4
[any] conflicts and inferences of bad faith,” and the administrator’s “interpretation, having relevant legal support,”
is automatically not “an abuse of discretion.” Id. at 9a, 13a.
The rule, in sum, is exactly categorical: the existence of
prior legal support “pretermit[s]” (Pet. App. 11a n.7) any
consideration of this Court’s “combination-of-factors”
analysis (Glenn, 554 U.S. at 118).
While the Fifth Circuit’s affirmative statements disprove respondents’ revisionist interpretation, what the
Fifth Circuit did not say dooms their take as well. Both
the case below and the case in Humble involved allegations of bad faith, impermissible conflicts, arbitrary and
uneven treatment, and legally incorrect plan interpretations. Pet. 9-11, 26 n.5. Those factors strike at the core of
the traditional totality inquiry; those elements are most
essential for courts to “weigh[] all together” and root out
fiduciary misconduct. Glenn, 554 U.S. at 117, 119; see 29
U.S.C. 1104(a)(1) (requiring fiduciaries to “discharge
[their] duties with respect to a plan solely in the interest
of the participants and beneficiaries”).
Yet not a single one of those key factors is discussed,
anywhere, in either Fifth Circuit opinion—aside from definitive statements declaring those factors would not be
considered. Pet. App. 11a & n.7 (“prior legal authority”
“obviates” the “abuse-of-discretion inquiry”); Humble,
878 F.3d at 484 (“[w]e need not review these factors today”). It is difficult to imagine any factor that might survive the Fifth Circuit’s absolute bar (upon identifying
“prior legal authority”) if those factors fail to make the
cut. This Court has described those factors (like impermissible conflicts) as those courts “must take into account.” Glenn, 554 U.S. at 116 (emphasis added). If the
Fifth Circuit preserved any sliver of the totality analysis,
respondents’ able counsel surely would have identified
and reproduced the relevant discussion in their brief. Yet

5
respondents could not muster any hint of an analysis extending beyond the mechanical task of identifying at least
“two other courts,” right or wrong, that endorsed the administrator’s interpretation—just like respondents could
not explain what else terms like “pretermit,” “obviate,”
“moot,” and “immaterial” could possibly mean.1
c. Nor can respondents (Opp. 9-10) shield the Fifth
Circuit’s decision with Humble’s (inexplicable) statement
that it was not adopting “a bright-line rule”—while simultaneously refusing to consider any other factor and declaring prior legal authority “dispositive” of the issue. 878
F.3d at 485. This is unequivocally a bright-line rule in
every way that counts: as the Fifth Circuit has now confirmed, the prior authority “obviate[s]” the “abuse-of-discretion inquiry,” “pretermit[ting]” any “discussion” of
“the abuse of the discretion factors.” Pet. App. 11a & n.7.
On its face, Humble adopted a categorical test, and the
Fifth Circuit has now confirmed that this test precludes
this Court’s mandatory “combination-of-factors” analysis—including any consideration of factors that other circuits recognize they “must” consider. E.g., Pet. 14-15.2
Nor can respondents brush off the decision as a rote application
of Humble. Opp. 10 (describing the case as “a simple application of
stare decisis”). While Humble set the legal standard, the panel engaged in its own separate analysis, and it explained precisely what
Humble required: If a court can identify prior judicial support for the
administrator, the ERISA inquiry is over—the traditional “abuse-ofdiscretion inquiry” is “obviate[d]” and “pretermit[ted].” Pet. App.
11a. That is a direct confirmation of the binding legal rule now controlling all ERISA cases in the Fifth Circuit.
2
Respondents make much out of the fact that the Court denied review in Humble (Opp. 1)—at a time when it was far from certain how
the Fifth Circuit would ultimately treat its new rule. The decision below eliminates any conceivable doubt about the per se nature of the
Fifth Circuit’s approach—or its square conflict with the standard required by this Court and dutifully applied by other circuits.
1

6
Respondents had little trouble understanding the true
nature of the Fifth Circuit’s approach in their briefing below: “[U]nder Humble, the fact that two courts had upheld
Cigna’s interpretation was ‘dispositive’ and the court did
not need to consider any other abuse of discretion factors.” Resp. C.A. Br. 46. And, indeed, respondents finally
admit the bright-line rule at the tail end of their opposition: “Cigna’s determination that charges not actually
billed to patients are not covered was supported by decisions of the Seventh Circuit and the Southern District of
Texas. ‘In these circumstances,’ the existence of those
holdings by itself ‘establishes that the interpretation does
not constitute an abuse of discretion.’” Opp. 19 (emphasis
added).
It is one thing to say that courts might adjust the
“weight” assigned to each factor in light of “inherent or
case-specific” circumstances (Opp. 10-11); but it is another
thing entirely to categorically cut-off the entire inquiry—
and exclude, absolutely, all relevant factors—because
“two other courts” upheld an administrator’s interpretation in the past. That is a per se approach under any ordinary definition, and it is flatly at odds with the “combination-of-factors” analysis required by this Court.
Respondents are perfectly free to defend the Fifth
Circuit’s per se rule on the merits; but they cannot avoid
a clear conflict by recasting the opinion as something it
most certainly was not.
2. The Fifth Circuit’s sharp departure from this
Court’s controlling standard is sufficient basis alone for
granting review. See, e.g., Reply Br., Goldman Sachs
Group, Inc. v. Arkansas Teacher Retirement Sys., No. 20222, at 5 (filed on Nov. 17, 2020) (citing multiple examples
in “this Term alone” where the Court granted review
based on a conflict “with a decision of this Court on an important question). But the decision below also conflicts

7
with the law in multiple circuits, and respondents cannot
escape the obvious conflict at the circuit level.
Unlike the Fifth Circuit, other circuits have faithfully
applied this Court’s totality inquiry, including in situations where “prior case law” supported the administrator’s interpretation. Pet. 14-18. Respondents distinguish
these cases by quibbling with immaterial and contrived
distinctions (Opp. 11-14), but they fail to engage the critical point: every other circuit confronting prior judicial authority has still examined this Court’s traditional factors—even where, for example, the administrator’s reading was supported by “the only court of appeals to have
considered th[e] precise issue.” Colby v. Union Sec. Ins.
Co. & Mgmt. Co. for Merrimack Anesthesia Assocs. Long
Term Disability Plan, 705 F.3d 58, 65, 67 (1st Cir. 2013).
The Fifth Circuit stands alone in “pretermit[ting]” the
“abuse-of-discretion inquiry.” Pet. App. 11a n.7.3
Respondents maintain that “[a]ny differences in outcomes” are “attributable to differences in case-specific
facts, not differences in the legal rules applied to those
facts.” Opp. 2. This is baffling. While respondents are absolutely right that the analysis is “fact-intensive, multifactorial, and context-dependent” (ibid.), that is entirely petitioners’ point. The Fifth Circuit erred by abandoning
that analysis and replacing it with an inflexible, per se
rule. It makes no difference that other circuits confronted
a different question or different facts; what matters is that
other courts confronted prior judicial decisions siding
with the administrator and yet still engaged in this

Petitioner further established that the Fifth Circuit misread the
only three cases it identified in support of its per se rule. See Pet. 1820. Respondents answer by parroting Humble itself—without any attempt to grapple with petitioner’s analysis. See Opp. 13-14 n.1. Their
silence speaks volumes.
3

8
Court’s “combination-of-factors” review. The Fifth Circuit applied the opposite legal rule here and entrenched a
clear circuit conflict in the process.4
Respondents cannot sidestep that conflict by pointing
to immaterial differences and ignoring the obvious conflict on the critical legal standard.
*
*
*
The conflict over this important legal question is both
clear and entrenched. Indeed, respondents themselves
have confirmed the lack of any reasonable prospect that
the Fifth Circuit will correct this problem on its own:
“having twice denied rehearing in Humble and now in this
case, there is no indication that the Fifth Circuit itself is
likely to ‘flip-flop.’” Opp. 16. As it now stands, one of
ERISA’s foundational legal standards will be applied differently based on the location where a dispute arises; this
Court alone can resolve the split.
B. The Question Presented Is Important And Recurring And Warrants Review In This Case
1. The question presented is of great legal and practice
importance. Respondents do not dispute that the question
Respondents subtly try to shift the basis of the Fifth Circuit’s
holding from simply identifying “prior legal authority”—which the
Fifth Circuit treated as an automatic proxy for “reasonable[ness]”
(Humble, 878 F.3d at 485; Pet. App. 11a-13a)—to asking whether an
administrator “reasonably” relied on that prior authority. Opp. 11-12
(asking whether an administrator “reasonably based its interpretation on two longstanding judicial decisions”). But the Fifth Circuit’s
rationale facially turned on “the existence of prior legal authority”
alone (Pet. App. 11a)—it did not demand a showing that the administrator relied directly on that authority. And it is clear that a reliancebased standard could not support respondents here—since one of the
“two other courts” was the initial district-court decision in this very
case. Pet. 11. Respondents obviously could not have “relied” on a nonexistent future decision in the very litigation prompted by their own
misconduct.
4

9
presented is essential to ERISA’s administration. Nor do
they doubt that it arises frequently in courts nationwide—
an unsurprising fact given the commonality of nationwide
plans and plan administration. And they do not contest the
critical importance of uniformity in the ERISA context—
indeed, they reaffirm the point. Opp. 18.
Instead, respondents largely argue that the decision
below is right on the merits—because, in their view, it permits similar plans to be construed consistently across jurisdictions. Opp. 18. Yet this ignores the entire point of the
ERISA analysis: whether the administrator is properly
performing its fiduciary role. A wrong decision, made in
bad faith, infected by conflicts, and applied unevenly is not
a decision adequately discharging one’s fiduciary duties in
protecting the beneficiary class. Glenn, 554 U.S. at 115.
The Fifth Circuit’s analysis says nothing about whether
an administrator acting in the best interest of the protected class would have reached the opposite conclusion—
even if the plan’s language had been endorsed (incorrectly) by two prior courts.5
This Court’s longstanding “combination-of-factors”
analysis safeguards ERISA’s core aims; the Fifth Circuit’s rule, by contrast, undermines those statutory objectives.
2. This case is an optimal vehicle for deciding this
question: the decision below turned expressly on the legal

Respondents’ attempts to argue the merits only identifies precisely the legal dispute that urgently warrants this Court’s attention.
But suffice it to say that respondents failed to meaningfully engage
petitioners’ merits arguments (see Pet. 21-24), and they cannot explain why “two” past decisions are a reliable proxy for an administrator’s faithful discharge of its fiduciary obligations—especially when
the inquiry explicitly cuts off review of all the key factors (like impermissible conflicts and bad faith) that directly address that question.
5

10
standard; the question presented was outcome-determinative—the Fifth Circuit expressly refused to consider
anything else; and the issue is a pure question of law. Pet.
25-26.
Respondents bizarrely respond that the case is a “poor
vehicle” due to the district court’s alternative holding.
Opp. 14-16 (“the district court conducted precisely the
kind of abuse-of-discretion review that [petitioners] say[]
it was required to undertake”). Respondents are confused. The entire point is that the Fifth Circuit refused to
apply the correct legal standard. It makes no difference
that the district court engaged in a totality review; petitioners maintain that the district court’s totality analysis
was wrong, and yet the Fifth Circuit refused to review the
key factors based on its mechanical view of ERISA’s legal
standard.
Respondents may believe that the district court’s findings will ultimately support them on remand. But respondents well know that a prediction about future rulings on alternative grounds is irrelevant when it comes to
granting review over the sole legal issue that was dispositive below. Pet. 26 n.5 (quoting respondents’ counsel in
explaining this Court’s customary practice).
In any event, respondents have already flagged the
compelling reasons to believe the district court erred in
its analysis—including the district court’s earlier findings
in this case and the related findings in Humble (where the
court examined the same language in the same plan and
found the same administrator engaged in “extraordinary
acts of bad faith,” had “a conflict of interest,” and misread

11
the plan). Pet. 26 n.5. This is not a case where the outcome
on remand is preordained.6
Respectfully submitted.
J. DOUGLAS SUTTER
SUTTER & KENDRICK, P.C.
3050 Post Oak Blvd., Ste. 200
Houston, TX 77056

DANIEL L. GEYSER
Counsel of Record
ALEXANDER DUBOSE &
JEFFERSON LLP
Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
(214) 396-0441
dgeyser@adjtlaw.com

DECEMBER 2020

Respondents falsely assert there was “no dispute that [petitioners] engaged in impermissible fee forgiving.” Opp. 3. That implicates
the core of this dispute. Respondents, however, ignore a matter that
is undisputed: petitioners provided $40 million of competent, medically necessary care—and respondents nevertheless are trying to
avoid paying what they owe.
6

